                                    UNITED STATES DEPARTMENT OF EDUCATION 

                                                 OFFICE OF INSPECTOR GENERAL 

                                                      KANSAS CITY OFFICE 


                                                8930 Ward Parkway, Suite 2401
                                               Kansas City, Missouri 64114-3302

 AUDIT SERVICES                                                                                                       INVESTIGAnON SERVICES
                                                    Telephone (816) 268-0500
FAX (816) 823-1398                                                                                                        FAX (816) 268-0526


                                                                                                  NOV 2 5 2003
   Board of Directors
   Wahupa Educational Services
   3251 Fourth Avenue
   San Diego, CA 92103

   Dear Board of Directors:

   This is our final audit report, Control Number ED-OIG/A07-D0009, entitled Audit of the Talent 

   Search Program at Wahupa Educational Services (Wahupa). The objective of our audit was to 

   determine if Wahup a administered the Talent Search program in accordance with the law 

   (Higher Education Act of 1965, Section 402B) and specific Talent Search regulations governing 

   the documentation of participant eligibility. Wahupa officials did not concur with our findings 

   and one of our recommendations in their August 11, 2003, response to our draft report. We 

   made minor edits to our audit report based on our review of the response, but made no changes 

   to our findings or recommendations. We have summarized the comments after the findings and 

   recommendations and the full response is provided as an attachment to this letter. 


                                                       AUDIT RESULTS

   We found that Wahupa did not always administer its Talent Search grant in accordance with
   applicable law and regulations. For the grant period September 1, 2001, through August 31,
   2002, we estimate that Wahupa served 1,702 allowable participants of the 2,300 participants it
   was funded to serve. Wahupa did not serve the participant number it reported on the Annual
   Performance Report (APR), and less than two-thirds of its Talent Search participants were low­
   income individuals who were potential first-generation college students. Not meeting the two­
   thirds assurance requirement resulted in a significant reduction in the number of allowable
   participants. We recommend that $122,900, a pro-rata share of the year's expenditures for
   unallowable participants, be refunded to the Department.




             Our mission is to ensure equal access to education and to promote educaliollal excellence tlrrouglrout lire Nation.
Final Audit Report	                                                             ED-OIG/A07-D0009


Finding 1: Wahupa Educational Services Did Not Serve the Participant Number It
Reported To Have Served In Its Talent Search Program


We estimate that the Wahupa Talent Search Program served 2,381 of 2,588 claimed participants
for the September 1, 2001, through August 31, 2002, budget period. While the 2,381
participants is more than the 2,300 participants Wahupa was funded to serve, this is less than the
2,5841 Wahupa reported in its APR to the Department of Education (the Department) for the
budget period.

Wahupa’s Talent Search Director provided us a listing (universe) of 2,588 participants served.
From the universe, we selected a random sample of 100 participant names to determine whether
they met both of the conditions for a participant as defined in 34 C.F.R. § 643.7

    (b) Other definitions . . . Participant means an individual who ­
        (1) Is determined to be eligible to participate in the project under § 643.3; and
        (2) Receives project services designed for his or her age or grade level.

Recordkeeping requirements are found at 34 C.F.R. § 643.32

    (c) Recordkeeping. For each participant, a grantee shall maintain a record of­
        (1) The basis for the grantee’s determination that the participant is eligible to
            participate in the project under § 643.3; . . .
        (3) The services that are provided to the participant; . . .

Of the 100 sampled, 92 met both of the conditions for a participant. Eight students did not meet
the definition of a participant. The Talent Search Director confirmed that:

    •	 one file was missing, therefore documentation of eligibility was not available (in spite of
       this, we were able to determine receipt of an eligible service),

    •	 five files lacked documentation to support citizenship status 2 (one student also lacked
       documentation of an eligible service), and

    •	 two claimed participants (meeting eligibility) did not have documentation to support an
       eligible service.



1
  We noted an insignificant difference of four participants between the number reported on the APR (2,584) and the 

number (universe) provided to us (2,588) on the population list. 

2
  Required by 34 C.F.R. § 643.3(a)(1)(iii).


                                                         2
Final Audit Report                                                                  ED-OIG/A07-D0009



Based on our statistical sample, we estimate that, of the 2,584 participant population reported in
Wahupa’s 2001-2002 APR to the Department, Wahupa served only 2,381 3 participants. We
estimate that the remaining 203 students did not meet both conditions for a participant.

The Department uses the information provided in the performance report to assess a grantee’s
progress in meeting its approved goals and objectives, and to determine a grantee’s prior
experience points. The data collected is also aggregated to provide national information on
project participants and program outcomes. The Department may be making decisions based on
an inflated count of participants and services delivered.

Wahupa Talent Search officials were not emphasizing documentation of student eligibility.
Specifically, officials were not monitoring staff to assure that adequate documentation was
maintained on the selection of participants and eligibility including citizenship status of
prospective participants. In fact, eligibility determinations were often performed only after
delivery of the service. Wahupa’s written policy and procedures provided that documentation of
eligibility and selection of the participant be recorded by the advisor completing a Needs
Assessment form and completing a Participant Selection Decision form documenting the bases
of eligibility. Instead, service was routinely provided simultaneously with the collection of
Intake forms, completed exclusively by the student, and missing documentation was not always
obtained.

Recommendations:

We recommend that the Chief Financial Officer (in collaboration with the Assistant Secretary for
the Office of Postsecondary Education) require Wahupa Educational Services to:

       1.1 Monitor Talent Search staff to assure that established procedures are followed to ensure
           that only eligible students are counted as participants and that only those participants
           receive project services.

       1.2 Follow established policy and procedures of documenting participant eligibility for
           selection into the program prior to delivering program services.




3
    We are 90 percent confident that the number of eligible participants was 2,381 +/- 4.83 percent.

                                                            3
Final Audit Report                                                    ED-OIG/A07-D0009



Auditee Response and OIG Comments

Wahupa Educational Services did not concur with the finding “ . . . insofar as it applies to
students who indicated they had an application for immigration pending before the
INS.” Wahupa does not dispute that the five citizenship exceptions lacked documentation of a
review of required additional evidence (e.g., note to file from educational advisor to document
review of INS documents). The basis for the five citizenship exceptions is footnoted in our
report and found at 34 C.F.R. § 643.3(a)(1)(iii) which specifies five citizenship status categories,
including, “Is in the United States for other than a temporary purpose and provides evidence
(emphasis added) from the Immigration and Naturalization Service of his or her intent to become
a permanent resident.” The response further states that the documentation is checked by the
advisors “as a matter of course.” In our opinion, delivery of service is not confirmation that
Wahupa staff ever reviewed INS records of the students’ intent to become a permanent resident.
Wahupa states that it has already adopted a practice for its advisors to “write out a more detailed
description of the documentation from INS.” We believe Wahupa’s intent to “make it a
permanent policy” will satisfy the requirement of the regulation.

The response also disagreed with the finding “... insofar as it applies to students who received
services on the day of their selection as participants, and these services were adjudged to be
ineligible services.” Wahupa provides a TRIO Program Office statement of policy in its
response that states, “It is preferable . . . to document a participant’s eligibility . . . prior to
services being offered and received.” This statement of policy is consistent with the guidance we
received from the Department in March 2003. Although Wahupa’s practice of delivery of
services to claimed participants on the same date as their selection into the program is noted in
the report, no participant service was disallowed due to the practice.

Wahupa concurs with Recommendations 1.1 and 1.2.

Finding 2: Wahupa Educational Services Did Not Meet the Assurance Requirement That
Two -Thirds of Its Talent Search Participants Will Be Low–Income Individuals Who Are
Potential First-Generation College Students

Wahupa officials did not verify low- income and first- generation status for all of its claimed
participants for the September 2001, through August 2002, budget period. We reviewed records
for the 92 eligible participants from the sample of 100 claimed students reported in Finding 1 to
determine whether Wahupa fulfilled the assurance requirement of 34 C.F.R. § 643.10:



                                                 4
Final Audit Report                                                            ED-OIG/A07-D0009


        An applicant shall submit, as part of its application, assurances that –
        (a) At least two-thirds of the individuals it serves under its proposed Talent 

            Search project will be low- income individuals who are potential first-

            generation college students; . . .


Although we were able to confirm low- income status through other records obtained, verification
of the first-generation status shown on student completed Intake forms was not documented for
56 of the 92 students that met the participant requirement. We requested other supporting
documentation for first-generation status for those students in our sample that met the low-
income requirement, but none was provided.

The Higher Education Act of 1965 (HEA) provides guidance for acceptable forms of
documentation for low- income status determination, but it is silent as to first-generation status
determination. We contacted the Department’s TRIO Program Director for guidance on whether
information provided by a minor child without verification is acceptable, and we received an
email in reply from the TRIO Program Management and Development Team Leader that stated:

        The parent or guardian (or in exceptional situations another knowledgeable adult
        (e.g. school counselor) should verify eligibility, which includes low- income and
        first-generation status, for a minor child. A common practice is for the parent or
        guardian to sign the application for participation in the program. Acceptable
        forms of documentation of low- income status are provided in Section 402A(e) of
        the Higher Education Act of 1965, as amended. As appropriate, a project should
        collect similar forms of documentation to verify first- generation status.

If parent verification was not obtained, Wahupa Talent Search officials accepted the information
from the Intake form provided by the minor child to determine first-generation status. In
accordance with Wahupa’s written procedures, participants were given a Parents’ Confidential
Documentation form that would have confirmed first-generation, as well as low- income status.
However, as stated in Finding 1, the eligibility determination was often done after the service
was provided and many students never provided the parent form.

Based on our sample results, we estimate that not more than 1,135 4 participants met the low-
income and first-generation requirement. Therefore, the percentage of eligible participants who
were also first-generation and low-income was not more than 48 percent (1,135/2,381 eligible
participants from Finding 1), which is significantly below the required two-thirds.


4
  Based on our sample, we are 90 percent confident that the documented number of low-income and first-generation
(LIFG) participants was 932 LIFG students +/- 21.82 percent. Because the precision exceeds 20 percent, we have
conservatively based our estimate on the upper limit or 1,135 (932 + 21.82 percent). The 1,135 provides a 95
percent confidence level that there are no more than 1,135 LIFG participants.

                                                       5
Final Audit Report                                                     ED-OIG/A07-D0009


Providing services to unallowable students may dilute services provided to allowable participants
by serving an infinite rather than a finite population as prescribed by law and Talent Search
regulations. The APR, mandatory for Talent Search grantees annually, reiterated the importance
stating:

       Two-thirds of project participants each year must be both low- income and
       potential first-generation college students; the remaining one-third can be . . . any
       individual in need of services.

Using 1,135 low- income and first-generation students, Wahupa was limited to serving no more
than 567 other participants, for a total of 1,702. This is significantly less than the 2,300 students
Wahupa was funded to serve for the 2001-2002 budget period. Accordingly, a pro-rata share for
unallowable participants should be refunded. See Table below for pro-rata calculation.

    Talent Search
    September 2001 – August 2002 Expenditures                                    $472,698.00
    Number of Allowable Participants                                                   1,702
    Number of Participants Proposed and Funded                                         2,300
    Number of Participants Unallowable (2,300-1,702)                                     598
    Percent Unallowable                                                                 26%
    Pro-Rata Over-Award (Grant Award Reduction)                                  $122,901.48
    To Be Refunded by Wahupa Educational Services (Rounded)                      $122,900.00

Recommendations:

We recommend that the Chief Financial Officer (in collaboration with the Assistant Secretary for
the Office of Postsecondary Education) require Wahupa Educational Services to:

   2.1 Refund $122,900 for unallowable participants because Wahupa did not meet the two-
       thirds low- income and first-generation requirement.

   2.2 Follow its procedures to verify student status to ensure that two-thirds of its Talent
       Search participants are both first-generation and low- income individuals.

Auditee Response and OIG Comments

Wahupa did not concur with the finding that it did not meet the assurance requirement that two-
thirds of its participants, during the period of our review, were both low-income and first-
generation. Wahupa continues that it, “ . . . believes that it [the finding] is based on an

                                                  6
Final Audit Report                                                   ED-OIG/A07-D0009


erroneous opinion about the documentation required for first-generation status.” The response
also states that the requirement contradicts widespread practice and has not been “propagated
among the Trio community.” We have no knowledge whether or not the policy interpretation
provided to us by the TRIO program office has been disseminated to TRIO program grantees;
however, we believe parental or other adult confirmation of first-generation status is appropriate
and in accordance with the intent of the program.

Wahupa concurs with recommendation 2.2, but did not concur with recommendation 2.1, to
refund $122,900 for unallowable participants.

                                        BACKGROUND

Title IV of the Higher Education Act of 1965, as amended (20 U.S.C. 1070a-11 and 12),
authorizes the Talent Search program, one of the Department’s TRIO programs. The Talent
Search program is governed by the regulations codified in 34 C.F.R. Part 643. All regulatory
citations in the report are to the codification in effect as of July 1, 2001.

The Talent Search program provides grants to projects designed to (1) identify qualified youths
with potential for education at the postsecondary level and encourage them to complete
secondary school and undertake a program of postsecondary education; (2) publicize the
availability of student financial assistance for persons who seek to pursue postsecondary
education; and (3) encourage persons who have not completed education programs at the
secondary or postsecondary level, but who have the ability to do so, to reenter these programs(34
C.F.R. § 643.1).

Wahupa Educational Services, also known as Wahupa Educational Enterprises, Inc., is located in
San Diego, California. It is a non-profit, multi-cultural agency that began as a small Talent
Search project at the San Diego Indian Center in 1973.

Wahupa was awarded a four- year Talent Search grant covering the performance period
September 1, 1999, through August 31, 2003 (P044A990015). Wahupa participates in other
TRIO programs, including Upward Bound, and Educational Opportunity Center (EOC). For the
2001-2002 budget period, Wahupa was awarded $472,698 to provide services to 2,300
participants and a $10,000 supplemental technology grant awarded to all Talent Search projects.
The Talent Search project administered by Wahupa targeted 25 schools, including 24 high
schools and 1 middle school all located in San Diego County.




                                                 7
Final Audit Report	                                                 ED-OIG/A07-D0009


                  AUDIT OBJECTIVE, SCOPE AND METHODOLOGY


The objective of our audit was to determine if Wahupa administered the Talent Search program
in accordance with the law and specific Talent Search regulations governing the documentation
of participant eligibility. Specifically, we sought to determine whether participants met the
twofold requirements of (1) eligibility and (2) receipt of eligible services during the budget
period.

To accomplish our objective, we

   •	 reviewed applicable Federal law and regulations,
   •	 reviewed files relating to the Talent Search project at Wahupa and at the Department’s
      TRIO program office located in Washington, D.C.,
   •	 interviewed Wahupa and Department of Education personnel,
   •	 determined whether the TRIO cluster had been audited by the entity’s Certified Public
      Accountants,
   •	 obtained and analyzed documents related to the Talent Search project at Wahupa (e.g.,
      organization chart, Wahupa policies and procedures), and
   •	 randomly selected 100 Talent Search participants from a universe of 2,588 to test
      participant eligibility and documentation of eligible service. Records for all participants
      selected in the sample were reviewed.

We relied upon the population list provided to us by the Talent Search Program Director of
Wahupa for drawing our sample. We tested the population list for accuracy and completeness by
comparing source records to the population list and the population list to source records. Based
on this test, we concluded the population data was sufficiently reliable to be used for a sample
population in meeting the aud it’s objective. An extract of payment and award data from the
Department’s Grants and Payments System (GAPS) was used to corroborate information
obtained from Wahupa’s accounting system. We found that Wahupa’s accounting data was
sufficiently reliable fo r our audit purposes.

The audit covered the 2001-2002 grant budget period (September 1, 2001, through August 31,
2002). We visited the Department’s TRIO program offices located in Washington D.C., from
July 31, 2002, to August 2, 2002. We conducted fieldwork at Wahupa from February 18, 2003,
to February 28, 2003. We held a field exit conference with Wahupa officials on February 28,
2003. Our audit was conducted in accordance with generally accepted government auditing
standards appropriate to the scope of review described above.



                                                8
Final Audit Report                                                    ED-OIG/A07-D0009


                      STATEMENT ON MANAGEMENT CONTROLS


As part of our review we assessed the system of management controls, policies, procedures, and
practices applicable to Wahupa’s administration of the Talent Search program. Our assessment
was performed to determine the level of control risk for determining the nature, extent, and
timing of our substantive tests to accomplish the audit objective.

For the purpose of this report, we assessed and classified the significant controls into the
following categories:

   •   Participant service;
   •   Participant eligibility; and
   •   Program record maintenance.

Because of inherent limitations, a study and evaluation made for the limited purpose described
above would not necessarily disclose all material weaknesses in the management controls.
However, our assessment disclosed management control weaknesses, which adversely affected
Wahupa’s ability to administer the Talent Search program. These weaknesses included
noncompliance with Federal regulations related to participant services resulting in participant
ineligibility and deficient record maintenance procedures. These weaknesses and their effects
are fully discussed in the Audit Results section of this report.

                              ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on the audit:

                   Jack Martin

                   Chief Financial Officer

                   Office of the Chief Financial Officer

                   U.S. Department of Education

                   400 Maryland Avenue, SW

                   Washington, DC 20202


                                                  9
              ---~      ----~




Final Audit Report 	                                                 ED-OIG/A07-D0009



It is the policy of the U.S. Department of Education to expedite the resolution of audits by 

initiating timely action on the findings and recommendations contained therein. Therefore, 

receipt of your comments within 30 days would be greatly appreciated. 


In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

Sincerely,


W~~~~
William Allen 

Regional Inspector General for Audit 


Attachment

cc: 	          Jack Martin, Chief Financial Officer 

               Sally Stroup, Assistant Secretary, Office of Postsecondary Education 





                                                 10
                   EDUCATIONAL TALENT SEARCH PROJECT 

                             Wallopa Community Edueanoaal ServiceJ 

                COIIlIbUllity-Based Programs of tile U.S. Department of Edueatioa 

                      3251 FourtIt Avenue - San Diego, CA

August 11, 2003

Wtlliam Allen
Regional Inspector General For Audit
Office ofInspector General
8930 Ward Parkway, Suite 2401
Kansas City, MO 64114-3302
Re: Transmittal of Comments in Response to Draft Report
     WahupaTalentSearchAudu

Dear Mr. Allen,

Please find enclosed this community agency's comments regarding the findings and the
recommendations found in your draft report.

WIth regard to the second finding in the draft, I sincerely believe that over 70% ofthe
Trio projects (particularly ETS, EOC and SSS, but also some Upward Bounds) are
accepting verification of first-generation status information directly from the student, on
the student application, over the student's signature. This is based on an informal survey
I made at a'recent SAEOPP training conference among the trainers and some project
directors. I asked them if they had ever had notice ofa policy requiring parental
verification of first-generation status information. The answer was uniformly ''no''. I
also surveyed a stack of application forms being utilized by long-established projects
which were offered as samples at the training conference. Out ofthe 11 forms in the
stack, 8 ofthe forms solicited the information regarding whether the parents had
graduated from college wUh a B.A. from the student, on the student application, over the
student's signature. So far as I can tell, no one among the projects has bad any notice that
there is anything amiss wUh the use of student verification for first-generation status
which, evidentlY, most projects have been using over the years. We have had at least five
sue visus by Regional Representatives where our method ofverifying first-generation
status was reviewed and approved. I also believe that the other branch ofthe Department
that does sUe visus is not employing the same standard for verifying first-generation
status as that used by your auduors.

Yours truly,

Wy~~
Victor Shupp, Project Director, on behalfofthe Board
                                   UNITED STATES DEPARTMENT OF EDUCATION 

                                                OFFICE OF INSPECTOR GENERAL 

                                                     KANSAS CITY OFRCE 


                                               8930 Ward Parkway, Suite 2401
                                              Kansas City, Missouri 64114-3302

 AUDIT SERVICES 	                                                                                                  INVESTIGATION SERVICES
                                                   Telephone (816) 268-0500
FAX (816) 823-1398                                                                                                    FAX (816) 268-0526
      Board ofDirectors
      Wahupa Educational Services
      3251 Fourth Avenue 

                                                                   1, Y R. +-e.e.
                                                                            y.        ctI(IL

      San Diego, CA 92103 
                                                 JUL 11 2003

      Dear Board of Directors:

      This Draft Audit Report (Control Number ED-OIG/A07DOO09) presents the results of
      our audit of the Talent Search program at W@hupaEducational Services (Wahupa). The
      objective ofour audit was to detennine if Wahup a administered the Talent Search
      program in accordance with the law and specific Talent Search regulations governing the
      documentation of participant eligibility. Please review this draft audit report and provide
      us with written comments on the findings and recommendations within 30 days of the
      date ofthis letter.

      • 	 If you concur with a specific finding and recommendation, describe the corrective
          actions you have already taken or those you plan to take and the targeted completion
          date.

      • 	 If you do not concur with a finding, give your reasons for disagreement together with
          the data to support your position.


      • 	 If you do not concur with a recommendation, please explain your disagreement and
          set forth the alternative corrective actions you have taken or plan to take and the
          target dates.

      This draft report is being provided to obtain advance review and comment from those
      with responsibility for the subject it discusses. It has not been fully reviewed within the
      Department of Education, and is, therefore, pre-decisional and subject to revision.

      Recipients of this draft report must not, under any circumstances, show or release its
      contents for purposes other than official review and comment. It must be safeguarded to
      prevent publication or improper disclosure of the information it contains. This draft and




             Our mission is to ensure equlll access to education and to promote educational exceUence throughout the Nation.
                                                                 Wahupa Response to Audit Draft Report


                     WAHUPA EDUCATIONAL SERVICES 

      COMMENTS ON FINDINGS AND RECOMMENDATIONS CONTAINED IN THE 

        DRAFT REPORT FROM THE OFFICE OF THE INSPECTOR GENERAL 


                                             FINDING 1:

That Wahupa did not serve the number it reported to have served.

Response:
Respondent disagrees with the finding insofar as it applies to students who indicated they bad an
application for immigration status pending before the INS (checked the third box on the
application form); and insofar as it applies to students who received services on the day of their
selection as participants, and these services were adjudged to not be eligible services.

I.      Summary

The finding rests primarily on:

      a. The auditors' conviction that where students present "evidence from the Immigration
         service" showing that they have an application pending, the educational advisor should
         specially annotate on the face ofthe student's application the specific letter or form that
         was presented by the student. Although the participants were served and indicated their
         immigration status by checking a box on the application form, the auditors' were
         unwilling to count them as participants without more detailed information written on the
         application.

      b. The auditors' belief that services could not be counted as real services if the services took
         place simultaneously with the collection ofapplications and selection ofparticipants.

II.      D~umentation     of Participants Who Are Not Legal Permanent Residents But Who
         Presellt Evids:nce Of An Ongoing Application at INS In Accord With 34 CFR
         643.3(8)(1)



         Each student application provides boxes to be checked by the student indicating (a) U.S.
         Citizen, (b) Legal Permanent Resident, or (3) Application for immigration status pending
         before the INS.

         In the cases where the auditors did not accept the participant, the participant had checked
         the third box, indicating an on-going application process at INS. Therefore, the students
         did in fact indicate their immigration status. However, the auditors feh that the
         educational advisor should have made a special annotation on the face of the student
         application, specifying the specific documentation from the INS that was presented by
         the student.




                                                    1

                                                       Wahupa Response to Audit Draft Report


B. Verification In The Normal Course

For Talent Search programs in California all students who have applications pending 

before INS are subject to significant relief under state Jaw AB540, which permits these 

students to attend state universities and colleges without paying non-resident fees. 

Therefore, each advisor, in the normal course, must verifY the exact status ofeach such 

participant to determine whether the participant meets the following requirements: 


        (a) Must have a bona fide application for immigration status filed with the INS.

        (b) Must have attended and graduate from a California public high school.

        (c) Must qualify academically for admissions to a state college or university.

 Students who check the third box in the immigration area of the student application must
 have their documentation checked by the ETS advisor as a matter ofcourse in order to
 determine that the Student qualifies for AB540 relief. Students who do not bring
 documentary evidence oftheir application before the INS can not be served, not only
 because they can not be considered as participants, but also because there is nothing that
 the Project can do for them to assist them in college admissions or financial aid.
 Therefore the system is self-regulating. If the student does not bring in the required
 documentation, the student is dropped from the target list for the school site because there
 are no services that we could provide to them.

 D. Suggested Approach

 The regulation specifies the substantive qualifications for residency status needed in
 order to be a participant. But it does not prescnoo a particular way that the evidence
 presented by the student has to be documented on the face ofthe student application.

Responded believes that if the Department chose to specify a standard way that the
evidence from the Immigration Department must be annotated on the student application,
the standard should be issued as a policy or as an advisory in writing to all projects, so
that all projects are on notice of the requirement, and all projects are audited by the same
standard.

In this case where the status of the student was documented, where there are no specific
regulatory standards for how the status is to be documented, and where projects
commonly have the students indicate their citizenship/immigration status~y checking
 boxes on the face ofthe application, it would make sense to make a ''Best Practice"
 reconunendation that the advisors write out a more detailed description of the
 documentation from INS on the face ofthe student application. Wahupa has; in fact,
 already adopted this practice and will make it a permanent policy. Respondent does not
-believe, however, that it is appropriate under these circumstances to disqualify the
 students as participants.




                                          2

                                                              Wahupa Response to Audit Draft Report


ID.   Delivery of Services To Participants On The Same Date As Their Selection

      A. The Auditors' Position

      In discussions with Respondent, the IG team took a very strong position that services did
      not count as eligible services which were delivered to a potential participant at the same
      time as the student was being processed and documented for selection. For this reason,
      the IG team refused to accept as participants any student who received program services
      only on the same day that the student Was recruited and selected.

      The Draft Report refers to this idea repeatedly. On page 3 ofthe draft report the auditors
      wrote: ''In fact eligibility determination was often performed only after delivery ofthe
      service. Wahupa's written policies ....provided that documentation ofeligibility and
      selection ofthe participant be recorded ... Instead, service was routinely provided
      simultaneously with collection ofIntake forms completed exclusively by the student and
      missing documentation was not always obtained."

      B. Practical Issues At The School Outreach Sites

      Based on Respondent's experience and also observation ofseveral other Talent Search
      programs over the years, a Talent Search Program is normally seeing a large number of
      students very rapidly. Because students are often difficult to pull from c1ass( we can't be
      sure ofgetting very many visits with any given student), it is vital to start program
      services (such as filling out college admissions form) on the first visit with the student in
      order to meet the admissions and financial aid deadlines or get the students started in
      their process. As a practical matter, so long as the elements to support selection ofthe
      student as a participant are present, based on the application form, it is in the students'
      best interest to launch into program services immediately and in some cases complete the
      formal paper work regarding selection later in the day. We also believe that most Talent
      Search Projects have traditionally approached it this way because ofthe conditions in the
      field.

      Please note that this project received at least five (5) formal Site Visits by Regional
      Representatives since the beginning the Talent Search Project. They observed the
      selection procedures and the services at the school sites. At no time did any Regional
      Representative suggest that it was improper to initiate services on the day the student was
      interviewed and selected.

      C. Formal Statement OfPolicy By The Trio Office
             In response to a request for clarification ofthis issue by Deltha Colvin which she
      needed in order to continue training new directors thru SAEOPP, the Trio Office
      provided the following formal statement ofpolicy through Program Officer Loretta
      Brown:
             ''It is preferable for a Talent Search project to document a participant's eligIbility
             and conduct a needs assessment prior to services being offered and received.
             However, because ofthe large number ofparticipants to be served by each project


                                                3
                                                              Wahupa Response to Audit Draft Report


               and the manner in which many projects deliver services, the Department of
               Education does not require the eligt1>ility documentation and needs assessment be
               completed before service delivery. For example, a Talent Search project may
               conduct a financial aid workshop at a target school for potential Talent Search
               participants. During or soon after this workshop, the project may ask the students
               to complete an intake form that would document eligt1>ility for and interest in
               participating in the Talent Search program.
               "A grantee identifies the target schools to be served by the project based on large
               numbers or high percentages ofeligible students in need ofproject services
               att~ing those schools. Thus, a project may assume that most of the students at
               the target school are eligible for the program and thus combine the delivery of
               services with the process ofidentifying and selecting eligible project
               participants."
               (From Loretta Brown to Deltha Colvin by e-mail on March 11, 2003)
Recommendation 1.1 Response:
Wahupa agrees that it should and will follow established policies to ensure that only eligible
students are counted as participants and receive services. The project has accepted the auditors'
recommendation that, for students who identifY themselves as persons who are currently
pursuing an application for iInmigration status with the INS, the project currently not only
requires that the students present the documentary evidence from INS regarding their
application, but also requires that each educational advisor record in writing the nature ofthe
specific INS form or other INS document presented by the student, on the fuce of the student~s
application in the space next to the box which is checked by the student indicating the student's
residency status. Furthermore, data entry staff and advisors have. been instructed that no student
may be selected as a participant, or recorded into the participant database, or given program
services, until this documentation on the face ofthe student application has been completed. AU
of these actions have been taken and this system is in place and being monitored.


Recommendation 1.2 Response:
Wahupa agrees that it is desirable to fully document participant eligibility and the selection of
the participant prior to initiating services. Therefore, the system whereby students are recruited
and selected has been altered so that:
   a) 	 The majority ofparticipants will be recruited, interviewed and documented early in the
        eleventh grade (rather than at the end ofthe eleventh grade year or in the twelfth grade as
        was the pattern). This will allow the advisors more time to continue contacting the
        students to ask for parent documentation, and time to fill out the selection form carefully
        without being under extreme pressure to begin services in order to meet critical deadlines.
        In order to allow time for this, each advisor will see approximately 50% fewer twelfth
        graders than has been the system in the past. By this system, most eleventh grade
        participants who role over to the twelfth grade will already have been documented and
        selected so that filling out college applications and other services can begin without
        overlapping the selection process.



                                                 4
                                                              Wallopa Respoase to Audit Draft Report


   b) 	 To avoid confusion over:free lunch lists, the selection documentation by advisors who are
        utilizing the free lunch list en lieu ofdocumentation from unresponsive parents, are
        required to have the free lunch list for the correct school and academic year on file in the
        central locked file cabinets. The data entry staff are required to verify the presence ofthe
        free lunch list in the central file before accepting any student application/participant
        selection forms from the advisor concerned or entering them into the participant database.
   c) 	 The student application/participant selection form has been remodeled so that the advisor
        must provide data regarding each eligibility requirement and sign and date the selection
        form before the participant can be added to the advisor's case load. If any eligIbility or
        assurances factor (e.g. low-income) is not documented, the application/selection form is
        returned to the advisor for correction.
All ofthese actions have been taken, the system is in place, and several multi-day training
sessions have been provided to the staff regarding the new procedures.
 The Wahupa staff appreciates the recommendations for better practice which were provided
orally by the auditors during our conversations and is endeavoring to implement them.
However, the project also believes that it is legitimate to provide some informational services at
the first meeting with the participants, as permitted by the policy statement from the Trio office,
above. This is to motivate the student to stick with the process and provide necessary
documentation. Controls are now in effect to prevent excessive rendering of services that would
interfere with the orderly documentation ofeligibility and selection.




                                           FINDING 2:
That less than two-thirds ofthe participants were both low-income and first-generation.
Response:
Respondent strongly disagrees,wilh the finding and believes that it is based on an erroneous
opinion about the documentation required for first-generation status. This standard contradicts
widespread practice among TS, EOC and SSS programs for the last 30 years, and asserts a policy
that has never in fact been propagated among the Trio community, and ofwhich no one has
received reasonable notice.
I. Summary
The draft report recounts that the auditors requested and received an opinion from Trio
Management that stated that the information regarding first-generation status (educational level
ofparents) could not be provided by a student participant, but only be verified by a signed
statement by the parent.
Since 1972 Respondent's Talent Search has relied on infonnation provided on the student
application and signed by the student to indicate whether either parent the student lives with has
graduated from a college or university with a bachelors degree. Therefore it fullows that, when
this standard was applied to this Talent Search, most of the participants were eliminated from the
necessary two-thirds who are to be both low-income and first-generation, not because of lack of


                                                 5

                                                               Wahupa Response to Audit Draft Report


low-income documentation, but because the first-generation information was provided by the
student and not by the parent.
Respondent does not believe that the opinion received by the auditors was an actual policy that
has ever been rendered in written form or propagated to the Trio community in order to give the
projects notice ofthe standard to be enforced. Given the practice in the field it would be
completely arbitrary to start applying this standard to projects in the field without getting
collegial feedback and giving all projects due notice. The application of this standard to this
Talent Search where there has never been any kind ofnotice to this project or to the Trio
community of the proffered standard, is inherently a violation ofthe principles ofDue Process,
which require fuir notice to any party who is to be judged by a standard, and the opportunity to
provide information as to why the standard might be unworkable or counter-productive.
Other reasons for doubting the validity of the cited standard are:
1. Widespread practice among ETS, EOC and SSS programs ofaccepting the information from
the student participant. (8 out of II forms surveyed among sample forms provided at a recent
SAEOPP Conference asked for the first-generation information from the student, on the student
application, signed only by the student.)
2. When surveyed by Respondent, a former member ofTrio Management, our program officer,
the trainers at a SAEOPP training conference (all project directors with more than 15 years of
experience and high credibility as trainers regarding regulations and policy), all stated that they
had never heard ofsuch a policy. This indicates that virtually no one in the Trio community has
any reasonable notice ofthis standard.
3. Since 1972 this Talent Search has had at least five site visits. The current project director was
present for the last three site visits. At each one ofthese site visits the Regional Representative
specifically reviewed the forms by which we gathered information, observed the selection
process and approved it. Respondent has documented first-generation status by the same means
consistently for thirty years, and it has been reviewed and approved repeatedly by representatives
ofthe department who were entrusted with conducting site visits. Respondent should have a right
to rely on this, under the equitable principle of detrimental reliance in Federal Common Law.
This is especially true where no written regulation has ever existed to specify the form of
documentation required and no writing ofany sort has ever been circulated among the projects
purporting to announce an official policy.
4. F ....stratioB oftbe legislative purpose of HEA 402(A)(e). The standard cited by the
auditors would clearly frustrate the intent ofthe legislative change in HEA 402(A)(e), which
allows a student with an unresponsive parent, who doesn't return parental documentation, to be
verified as low-income from the Free Lunch List. It would frustrate it because even after a
participant's low-income status was established from the Free Lunch List, the project would still
not be able to use the participant to meet its assurance oftwo-thinls. The student's parent
didn't respond, so the student couldn't be considered first-generation. Under this scenario the
student winds up among the one-third who can be low-income or neither-nor. The student's
chance ofbeing included in the two-thirds group would not be altered in any way, and the
student might tIS well have stayed tIS a neither-nor. The student's low-income status by itselfis
useless to the project in order to meet its two-thirds requirement. Therefore there would be no
motivation to utilize the flexibility afforded by HEA 402(A)(e) because it would not help the
project in any way to l1erify the low-income stIlIus ofa student from the Free Lillich List who


                                                 6

                                                               Wabupa Response to Audit Draft Report


nevertheless could never be consideredfast-generation because ofthe lock ofparental
documentation. For all practical purposes it would nullifY the effect ofthe provision and the
benefits to the projects and to the participants which were intended to flow from it.
ll. Established Practice And Approval By Regional Represeatatives Dariag Site Visits
It is clear that this Talent Search Program bas always relied primarily on the participant's
statement on the Student Application to document the educational level ofthe parents for
purposes ofascertaining whether the student is a first-generation potential college student.
The specific question that is asked on the student application has always bad wording more or
less like this: "Has either ofthe parents you live with graduated from a four-year college or
university in the United States with a Bachelor's degree?"
Since 1972 when this Talent Search began, this practice ofasking the student for this statement
regarding the educational level of the parents bas been followed consistently by this Project.
During those years, the Project had at least five (5) site visits. The current project director was
present for three (3) ofthose site visits which were conducted by the Region IX Regional
Representative.
On each ofthose occasions the 'Regional Representative reviewed the student application form,
the method by which students were documented as first generation and low income, and
observed the Academic Advisors at their work at the schools as they carried out the selection
process.
At no time did the Regional RepresentatWe ever mention that the stJUlent's signature on the
student appliclltlon was insuffICient to establish the lock ofa four-year education on the part
oftheir parents. All ofthe discussions in those days were focused on whether the project could
use the Free Lunch List to verifY the low income status of the students whose parents failed to
re~urn the Parent Information Form. This particular issue was resolved by the legislative change
in HEA 402(A)(e). There was never any suggestion that those same students could not be seen
as first-generation because ofthe lack ofparental documentation. Why wasn't there a
legislative or regulatory statement initiated regarding adequate documentation for first­
generation? Respondent believes that the issue was never raised because no one questioned that
the student-provided information regarding the parents' educational level was sufficient to
establish first-generation status.


m.   Widespread Practice At Other Trio Prggrams.
Respondent's project director recently attended a multiple-day training session in San Diego
presented by SAEOPP. The trainers and the trainees were from many areas of the United States
and several seasoned project directors ofTalent Search, EOe and Student Support Services
programs were present.
 Since Respondent bad recently received an e-mail from the IG Audit team regarding this
"guidance on whether information by a minor child without verification is acceptable" (Pages 4­
5 Qfthe Draft), Respondent endeavored to determine how many project directors and/or trainers
in Trio were aware ofthis interpretation.
When asked, the trainers and project directors who were contacted stated that they had never
heard of such a policy. They also stated that while the parent's verification oflow~income status


                                                 7

                                                               Wahupa Response to A1ldit Draft Report


(or Free Lunch verification) was necessary for the low-income documentation, they believed the
most common practice was to ask the question ofthe student with regard to parents' educational
level One of the trainers is a Student Support Services manager who spends a great deal oftime
training and doing external evaluations. She stated that it is the universal practice among Student
Support Services programs to ask the student to verifY whether the student's parents have
graduated from college with a Bachelor's degree, and not to ask for parental statements on this
issue although virtually all of the students are dependent students and some are minors.
SAEOPP produced a large binder of sample application forms that are in current use by
established projects. These forms were being recommended as samples that new project
directors could utilize and adapt for their programs. Out of 11 forms, 8 of the forms asked for
the first-genention information from the student, on the student application, signed only
by the student. Most used essentially the same language as that used by Wahupa on the
student applieation:
        "Did either ofthe parents with whom you live graduate with a Bachelor's degreefrom
a four-year college or university In the United States.?"
Respondent contacted its program officer at Trio. She stated that she was not aware that any
such policy had ever been established. Respondent submitted a written request for a formal
statement of policy regarding documentation offirst-generation status. Respondent was advised
that it would take substantial time to evolve a formal written statement because several levels of
the Department had to be consulted and the ''practical effect on the programs" had to be taken
into consideration.
Respondent contacted a former senior member ofTrio staft who had retired recently. She was
deeply involved in the management of the Trio Office both during the tenure ofRichard
Sonnergren and for several years after he retired. She responded to my question by stating that
she had never been aware ofsuch a policy with respect to documentation offirst-generation
status. She also stated that she could not understand how such a new policy could be enforced
without first giving all the projects reasonable notice.
For these reasons, Respondent believes that the policy applied by the IG team in this case is not a
policy that has ever been published or promulgated among the Trio community. Ifit ever existed
in any form prior to being e-mailed to the auditors' office, no one was on notice ofit. If
seasoned trainers were unaware ofit, highly experienced project directors were unaware ofit,
senior Trio staff members were unaware ofit, the Program Officers at the Trio Office were
unaware ofit, Regional Representatives were unaware ofit, and it never was brought up during
site visits, how could there have been fair notice of its existence to the people laboring in the
field?
When a standard is used against any project, ofWhich there has never been any reasonable
notice, either to this project or to any other projects that are similarly situated, it violates the
most basic requirement ofdue process, which is notice and the reasonable opportunity to
conform to the new standard or provide feedback regarding the standard. When a project like
Respondent's Talent Search bas additiopally relied in good faith onprevious representations
made by offlCiIIl represenllltives ofthe, depqrtment approving its methods ofdocumentation in
site visits, this makes the denial ofbasic justice all the more blatant.
                                            t,'
                                                                    Wah. Response to Audit Draft Report


IV. HEA402(A)(el And The Problem Of The Unresponsive Parents
          A. Unresponsive Parents
When Regional Representatives visited projects during the years prior to the changes enacted in
HEA(A)(e) the projects universally complained ofthe near impossibility ofgetting sufficient
parents to fill out and return Parent Forms with Income Information so that an adequate number
ofthe students could be documented as low-income. This problem is consistent with the fact
that:
                  a The target families are extremely low-income, the students at risk, and the
          parents often dysfunctional or suspicious ofrequests for specific information. For
          immigrant families there is a persistent fear ofpresenting information which they fear
          might compromise them. For many parents the education of their children is not a
          conscious value and they don't respond to requests that forms be completed or signed.
          The target students live in census tracks where (in our case) less than 7% ofthe parents
          have attended college and where in less than 50% ofthe parents have graduated from
          high school. Higher Education is not a concept among most ofthese parents.
                  b. The older, larger Talent Search projects were seeing very large numbers of
          students and had limited time to chase down students or keep sending forms over and
          over to unresponsive parents.
In order to deal with students who were obviously in need ofservices and eligible, but whose
parents would not respond, some projects (like Wahupa) started securing Free Lunch lists and
using them for verification oflow-income status en lieu ofparental documentation where the
parents would not respond.
There was some controversy over this remedy, as some of the officials performing site visits
would not accept free lunch eligibility en lieu ofthe income verification by the unresponsive
parent. Finally this was resolved by enacting the changes embodied in HEA 402(A)(e) which
made it clear that being on the free lunch list or an AFDC list could be used en lieu ofthe income
verification by the unresponsive parent.
In site visits to Wahupa by the Regional Representative for Region IX, it was clear that where
the parents did not return the Parent Documentation Form (which covered both family income
and educational level ofthe parents among other data), Wahupa was using
          (a) The free lunch list to establish low-income status.
          (b) The student's application with the student's signature to establish first~generation
status.
It was also clear to the Regional Representative that Wahupa Talent Search was considering
these students to be part ofthe two-thirds of the case load that were both low-income and first­
generation. The Regional Representative consistently approved the method ofdocumentation
and the fact that these students were reported as part ofthe group that were both low-income and
first generation to meet the assurances requirement oftwo-thirds.




                                                    9

                                                               Wahqpa Response to Audit Draft Report


       B. 	 The Use OfThe Free Lunch List Where Parents Did Not Remond Could Produce No
         Benefit For the Project or the Participant Unless the Participant's Verification Of First­
         Generation Status Was Accepted
In retrospect it is clear that the only way the use ofthe Free Lunch List en lieu ofdocumentation
from unresponsive parents could benefit the project was if the Participantts verification offirst­
 generation status was accepted. The same unresponsive parent who wollld not retum the form
for pllrpoSes ofincome verification wollld also not retllm the form for pllrposes ofverihing
fU'St-generation status. Therefole, if the participant's own verifICation ofjirst-generation
status WIIS not accepte~ the strulnrt could be documented lIS low income from the Free lunch
 List, but could never be both low.-income tmdjirst-generation. The verification offirst­
 generation status from the umesponsive parent would still be missing. The net result for the
 project would be that there would be no logical reason to bother to use the alternative low­
 income verification, because without the parent document the project still could not document
 the student as first-generation. And since the students who were verified from the Free Lunch
 List could never be included in the two-thirds ofthe case load that was Both!And, the student
 would have to be included in the other one·third, anyway. And the student could have been
 included in the other one-third ofthe case load when the student was NeitherlNor - neither low­
 income nor first-generation.
From the student's standpoint, the student's chances ofbeing included in the case load would be
no better as a result ofbeing documented as low-income from the free lunch list, because without
the parent documentation the student still would have to get squeezed into the one-third ofthe
case load along with the NeitherlNors.
Therefore, in a scenario where the student's verification offirst·generation status is not accepted,
the alternative means ofverifying low-income contained in HEA 402(A)(e) would become
meaningless and useless to both the project and the potential participant. It would serve no
purpose. The intended effects ofHEA 402(A)(e) would be nullified.


Recommendation 2.1 Response:
For all the reasons discussed above, Respondent strongly disagrees with the recommendation
that Respondent should pay back to the Department over 122,000 dollars which have been
already expended in delivering legitimate services to bona fide participants. The only thing
Wahupa has done is continue to document the first-generation status ofparticipants by the same
method that it has consistently employed for over thirty years since 1972. This approach to
verifying first-generation status was approved and re-approved over and over again by Regional
Representatives during site visits. During this same period, no written policy was ever issued
that in any way specified the method of documentation to be employed for first-generation
status. Certainly no policy was ever announced that would have given Wahupa or any other
project any indication that Wahupa's approach to documenting first-generation status was
incorrect.
 Ifthe Department reverses the position that its representatives have taken during previous site
visits, then Wahupa has relied to its detriment on the Department's own representations via its
authorized representatives, and is then being punished by the Department for believing the




                                                 10 

-~~~~~~.~-----------




                                                                       Wabupa Respouse to Audit Draft Report


      Department's own representatives. This circumstance is clearly analogous to those giving rise to
      the equitable doctrine of Detrimental Reliance.
      No notice of the ofpolicy by which Wahupa is being judged has ever been given to this Talent
      Search or to any other entity within the Trio community. No past or present member ofprogram
      staff at the Trio office is aware of, or has been put on notice ofthe standard that is being
      imposed by the auditors.
      In the absence offair and reasonable notice of the standard to be enfor~ the taking of 122,000
      dollars from Wahupa is clearly violative ofthe Due Process provisions ofthe Fifth Amendment
       ofthe U.S. Constitution.
       Moreover, Respondent has been informed by colleagues in the field, and believes, that the
       interpretation imposed by the auditors is distinct from the standard beg enforced by othg
       branches of the Dejlartment that are also currently doing site visits throughout the United States,
       Ifthis is so, the imposition ofthis standard is violative of Wahupa's right to Equal Treatment
       Under the Law as required by the Fourteenth Amendment ofthe Constitution. Wahupa is being
       singled out, and judged by a different standard, than other projects that are similarly situated, but
       happen to be audited or site-visited by a different branch ofthe Department ofEducation.
       The recommendation is punitive, confiscatory and would result in the bankruptcy and closing
       down of this community agency which does not possess assets equivalent to the amount of
       money demanded. This is a disproportionately harsh, punitive and extreme measure to be taken
       against a Talent Search project solely because the project has continued to serve bona fide
       participants, and to document their first-generation status, in a manner that has been repeatedly
       reviewed and approved by the Department in the past. Wahupa has done nothing fraudulent,
       criminal or in any way damaging to the department. The recommendation is unjust, and should
       not be enforced by the Department.
       Recommendation 2.2 Response
      On its face Wahupa can only agree with the words ofthis recommendation. However, Wahupa
      believes and has forcefully argued above, that its Talent Search has been following appropriate
      procedures to document first-generation status ofparticipants, and to ensure that two-thirds of
      the participants are both low-income and first-generation.


       Submitted:
       The Board ofDirectors
       Wahupa Educational Services

      By~~
           Project Director, on behalf ofthe Board




                                                        11 

